      Department of Homeland Security




          Improvements Needed To Strengthen the
     Customs-Trade Partnership Against Terrorism Initial
           Validation Process for Highway Carriers




OIG-12-86                                          June 2012

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington,   DC 20528 / www.oig.dhs.gov


                               JUN 1- 2012

MEMORANDUM FOR:              Shawn C. Beddows
                             Acting Director
                             Customs-Trade Partnership Against Terrorism/Industry
                             Partnership Programs
                             U.S. Customs and Border Protection

FROM:                        Anne L. Richards        t2vu./~J
                             Assistant Inspector General for Audits

SUBJECT:                     Improvements Needed to Strengthen the Customs- Trade
                             Partnership Against Terrorism Initial Validation Process for
                             Highway Carriers

Attached for your action is our final report, Improvements Needed to Strengthen the
Customs- Trade Partnership Against Terrorism Initial Validation Process for Highway
Carriers. We incorporated the formal comments from the U.S. Customs and Border
Protection (CBP)in the final report.

The reportcontains three recommendations aimed at improving CBP's initial validation
process for highway carriers. Your office concurred with all three recommendations. As
prescribed by the Department of Homeland Security Directive 077-1, Follow-Up and
Resolutions for the Office of Inspector General Report Recommendations, within 90
days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3)
target completion date for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the
current status of the recommendation. Until your response is received and evaluated,
the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                 OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Audit .................................................................................................................. 3 


              C-TPAT Initial Validation Process For Highway Carriers Needs
               To Be Strengthened............................................................................................... 3 

              Recommendations ................................................................................................. 6 

              Management Comments and OIG Analysis ........................................................... 7 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology .............................................. 9 

              Appendix B:          Management Comments to the Draft Report ............................... 11 

              Appendix C:          Major Contributors to This Report ................................................ 14 

              Appendix D:          Report Distribution ........................................................................ 15 


   Abbreviations
              CBP                     U.S. Customs and Border Protection
              C-TPAT                  Customs-Trade Partnership Against Terrorism
              CY                      calendar year
              DHS                     Department of Homeland Security
              SCSS                    Supply Chain Security Specialists
              SOP                     Standard Operating Procedures
              SAFE Port Act           Security Accountability For Every Port Act of 2006
              OIG                     Office of Inspector General
              Portal                  CTPAT Security Link Portal




www.oig.dhs.gov                                                                                                                 OIG-12-86
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   We conducted an audit of the Customs-Trade Partnership Against Terrorism Program to
   determine whether its initial validation process ensures that highway carriers’ security
   practices meet minimum security requirements. Customs-Trade Partnership Against
   Terrorism Program’s initial validation process does not always ensure that highway
   carriers’ security practices meet minimum security requirements.

   Specifically, documentation maintained by the Supply Chain Security Specialists for the
   initial validation process for highway carriers did not always confirm the accuracy and
   effectiveness of security measures declared in a carrier's Customs Trade Partnership
   Against Terrorism security profile. Supply Chain Security Specialists did not always
   follow Standard Operating Procedures, and did not include adequate details in the
   validation worksheet, explaining how they verified evidence of implementation for
   critical business partner and conveyance security procedures. These conditions
   occurred because the Customs Trade Partnership Against Terrorism Standard Operating
   Procedures did not indicate what evidence should be maintained to support conclusions
   made by Supply Chain Security Specialists or where this evidence should be included in
   the Security Link Portal, which it uses as its records management system. In addition,
   the “evidence of implementation” training provided to Supply Chain Security Specialists
   did not contain specific details of what should be obtained to support tests conducted
   for critical business partner and conveyance security requirements. The deficiencies
   that we identified in CBP’s initial validation process have reduced the agency’s ability to
   ensure that carriers’ security practices promote supply chain integrity, and could expose
   CBP to increased risk of compromised border security.

   We made three recommendations that will aid CBP in strengthening its initial validation
   process for highway carriers. CBP management concurred with all three
   recommendations.




www.oig.dhs.gov                                 1                                       OIG-12-86
                           OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   The Customs-Trade Partnership Against Terrorism (C-TPAT), established in 2001, is a
   voluntary government-business initiative to build cooperative relationships that
   strengthen and improve the overall international supply chain process 1 and U.S. border
   security. The program requires trade company participants to document and
   demonstrate their supply chain security procedures according to applicable U.S.
   Customs and Border Protection (CBP) C-TPAT security requirements. The Security and
   Accountability for Every (SAFE) Port Act of 2006 established time-sensitive mandates,
   such as reviewing and certifying security profiles within 90 days of submission,
   completing validations within 1 year of certification, to the extent practicable, and
   revalidating within 4 years of the initial validation.

   As one of the measures geared toward meeting some of the requirements of the SAFE
   Port Act, C-TPAT established standard operating procedures (SOPs) for its Supply Chain
   Security Specialists (SCSSs). These security specialists travel the globe to visit partners
   and their facilities to validate that supply chain security practices and procedures meet
   the program’s minimum security criteria and agreed-upon security standards.

   The C-TPAT security criteria were jointly developed by CBP and the trade community.
   C-TPAT members receive the following benefits, among others:

       •	 Fewer CBP inspections (reduced border delays);
       •	 Priority processing for CBP inspections (front-of-the-line processing for 

          inspections when possible); and 

       •	 Eligibility to attend C-TPAT supply chain security training seminars.

   To further enhance processing and communication for C-TPAT participants and certified
   members, the program created the C-TPAT Security Link Portal (Portal), which it uses as
   its records management system.




   1
     The international supply chain process is the collaboration between partners (domestic and overseas)
   involved in moving raw materials, work-in-process inventory, or finished goods from the supplier to its
   final distribution point.


www.oig.dhs.gov                                        2	                                             OIG-12-86
                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
           C-TPAT Initial Validation Process For Highway Carriers Needs To Be
           Strengthened

           Improvements are needed in CBP’s initial validation process for highway carriers
           to reduce the risk of compromised border security. Documentation maintained
           by the SCSSs for the initial validation process for highway carriers did not always
           confirm the accuracy and effectiveness of security measures declared in a
           carrier’s C-TPAT security profile. Specifically, SCSSs did not always follow SOPs
           and did not include adequate details in the validation worksheet to explain how
           they verified evidence of implementation for critical business partner and
           conveyance security procedures. These conditions occurred because the C-TPAT
           SCSS SOPs did not indicate what evidence should be maintained to support
           conclusions made by the SCSS or where this evidence should be included in the
           Portal. In addition, the “evidence of implementation” training provided to SCSSs
           did not contain specific details of what should be obtained to support tests
           conducted for critical business partner and conveyance security requirements.

           The deficiencies that we identified in CBP’s initial validation process have
           reduced the agency’s ability to ensure that carriers’ security practices promote
           supply chain integrity, and could expose CBP to increased risk of compromised
           border security.

           SCSSs Did Not Adequately Document Support for Critical Business Partner and
           Conveyance Security Procedures Verification

           SCSSs did not include adequate details in the validation worksheet to explain
           how they verified evidence of implementation for critical business partner and
           conveyance security requirements. The minimum security requirements
           mandate that highway carriers must have written and verifiable processes for
           screening business partners, and conveyance inspections must be systematic.
           However, specific evidence guidelines for this mandate have not been
           established for SCSSs. Evidence-of-implementation training was provided to
           SCSSs, but it did not contain details of what should be obtained to support tests
           conducted for critical business partner and conveyance security requirements.
           According to the SAFE Port Act, the program shall establish sufficient internal
           quality controls and records management to support its management systems,
           and maintain a records management system to document determinations on the
           reviews of each of its participants, including certifications, validations, and
           revalidations.


www.oig.dhs.gov                                 3                                       OIG-12-86
                          OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Regarding critical business partner procedures, 15 of 21 carriers we reviewed
           had validation worksheets on which the SCSS noted that procedures were in
           place. Of the remaining six carriers, the validation worksheet was not available
           for two carriers and the other four carriers did not comply with this business
           partner requirement. Our audit disclosed that, for 10 of the 15 carriers, the SCSS
           indicated on the validation worksheet that security requirements were verified;
           however, there was little to no information indicating what documentation was
           verified and who provided it. The validation worksheet for one carrier did
           contain explicit details. For the remaining four carriers, the SCSS used verbal
           statements as the sole evidence of implementation. We are not making
           recommendations regarding the use of verbal statements as evidence of
           implementation because C-TPAT has eliminated this practice from its guidance.

           Regarding critical conveyance security procedures, 14 of 21 carriers had a
           validation worksheet on which the SCSS noted that procedures were in place. Of
           the remaining seven carriers, the validation worksheet was not available for two
           carriers and the other five carriers did not comply with this conveyance security
           requirement. Our audit disclosed that, for 11 of the 14 carriers, the SCSS
           indicated on the validation worksheet that security requirements were verified;
           however, there was little to no information indicating what documentation was
           verified and who provided it. The validation worksheet for one carrier did
           contain explicit details. For the remaining two carriers, the SCSS used verbal
           statements as evidence of implementation.

           Standard Operating Procedures Were Not Always Followed

           SCSSs did not always follow the established procedures. Specifically, they did
           not always:

                  •	 Conduct a secondary vetting procedure on the carrier to confirm that no
                     significant Customs violations had taken place;
                  •	 Complete the initial validation within 1 year of the certification; or
                  •	 Obtain signed certification letters.

           Secondary Vetting Not Conducted

           Our review of the Portal and hard copy files showed that SCSSs did not conduct
           secondary vetting for 3 of 21 carriers’ initial validations to ensure the accuracy of
           the initial vetting information. The Security Specialist SOP prescribes that the
           Vetting Processing Center conducts the initial vetting for all highway carriers. It
           also requires the SCSSs to ensure the Center’s vetting accuracy through


www.oig.dhs.gov                                  4	                                       OIG-12-86
                              OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              secondary vetting to confirm that no significant customs violations have taken
              place. During vetting, the SCSSs should identify recent activity that may not have
              occurred at the time of the initial vetting. While vetting partners, the SCSSs
              conduct research in internal CBP databases such as Automated Commercial
              System and open source information available on the Internet using the
              company and financial websites. According to the SCSS SOPs, the SCSSs should
              document all vetting results in the Vetting Results section of the Portal. It is
              critical that SCSSs follow the established vetting procedures to reduce the risk of
              security compromises in the supply chain.

               Initial Validation Not Completed Within 1 Year of Certification

              In our sample of 21 carriers, there were 4 instances in which the SCSS did not
              complete the initial validation within 1 year of the certification. Reasons for the
              delays were not documented in the Milestones section of the Portal. The SAFE
              Port Act Subtitle B, Section 215 (a) requires that the validation, including onsite
              assessment, must be completed no later than 1 year from the certification, to
              the extent possible. Chapter 4 of the SCSS SOPs restates this requirement. Table
              1 shows carrier certification and validation completion dates. The validation
              completion dates reflect the time period to establish compliance with this
              requirement. We could not locate a certification letter for one Houston highway
              carrier; therefore, we could not determine compliance.

        Table 1: Carriers Where the SCSS Did Not Complete the Initial Validation Within 1
                                   Year From the Certification
            Carrier         Certification Date        Validation            Lapse Time 2
                                                  Completion Date
       Newark Carrier 1          3/4/2008             9/10/2009               190 days
       Houston Carrier 1        2/19/2008             3/12/2009               22 days
       Houston Carrier 2         7/7/2008             8/31/2009               55 days
       Houston Carrier 3        4/15/2008             8/10/2009               117 days
   Source: DHS OIG Office of Audits

              Certification Letters Not Signed

              In our sample, 20 of the 21 carriers’ certification letters did not contain a
              signature. For one carrier, there was no certification letter in either the Portal or
              hard copy files. Once the SCSS indicates approval of vetting and the Security
              Profile in the C-TPAT Portal, certification letters are automatically generated and
              uploaded. Initially, a C-TPAT official indicated that this situation could have
   2
       Lapse time is the number of days after the 1-year deadline.


www.oig.dhs.gov                                           5                                  OIG-12-86
                        OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           resulted from a programming glitch in the Portal, but later determined that a
           request to include the signature was not submitted. C-TPAT officials explained
           that the signature will be added as a part of the next Portal upgrade in January
           2012. The certification marks the beginning of the 1-year timeframe required by
           the SAFE Port Act for completion of the validation process.

           Conclusion

           CBP’s initial validation process for highway carriers needs to be strengthened to
           reduce the risk of compromised border security. At the exit conference, C-TPAT
           officials acknowledged that improvements were needed to enhance the initial
           validation process for highway carriers. C-TPAT has been updating the SOPs in
           conjunction with implementation of the next version of the Portal, has revised its
           training to include improved evidence-of-implementation practices, and plans to
           improve the Evaluation Assessment Branch oversight process. However, these
           improvements have not been finalized: the policy has not been updated, the
           Portal upgrade has not been completed, and improved SOPs have not been
           finalized. Accordingly, our findings remain relevant until corrective measures
           have been implemented.

           Recommendations

           We recommend that the Assistant Commissioner, Office of Field Operations:

           Recommendation #1:

           Update the C-TPAT SCSS SOPs to explain what specific details should be included
           in the validation worksheet and how SCSSs should verify evidence of
           implementation for critical minimum security requirements.

           Recommendation #2:

           Revise the “evidence of implementation” training to explain how SCSSs should
           verify evidence of implementation for critical minimum security requirements
           and what information they should document to support conclusions.




www.oig.dhs.gov                                6                                       OIG-12-86
                        OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #3:

           Ensure that SCSSs follow SOPs when conducting the initial validations of highway
           carriers or document reasons for deviations.

           Management Comments and OIG Analysis

           CBP submitted formal comments to our report. A copy of the CBP response is
           included as appendix B. We also received technical comments from CBP and
           have made changes to the report based on these comments. CBP concurred
           with all recommendations. Our analysis of the CBP response to the
           recommendations follows.

           Recommendation #1:

           Update the C-TPAT SCSS SOPs to explain what specific details should be included
           in the validation worksheet and how SCSSs should verify evidence of
           implementation for critical minimum security requirements.

           Management Response: CBP stated that it has reviewed the C-TPAT program
           and is in the process of incorporating specific instructions into existing or new
           SOPs regarding the details and supporting documentation that must be included
           in the validation worksheet.

           OIG Analysis: CBP’s comments are responsive to this recommendation.
           However, it will remain open and unresolved until CBP provides the SOPs that
           reflect the details and supporting documentation that must be included in the
           validation worksheet.

           Recommendation #2:

           Revise the “evidence of implementation” training to explain how SCSSs should
           verify evidence of implementation for critical minimum security requirements
           and what information they should document to support conclusions.

           Management Response: CBP stated that it has provided an enhanced version of
           “evidence of implementation” training to all C-TPAT staff and provided notice to
           the Field Office managers advising them that it was critical to ensure that SCSSs
           are gathering the appropriate evidence during the validation process.




www.oig.dhs.gov                                7                                       OIG-12-86
                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis: CBP’s comments are responsive to this recommendation.
           However, it will remain open and unresolved until CBP provides documentation
           that reflects how SCSSs should verify evidence of implementation for critical
           minimum security requirements and what information they should document to
           support conclusions.

           Recommendation #3:

           Ensure that SCSSs follow SOPs when conducting the initial validations of highway
           carriers or document reasons for deviations.

           Management Response: CBP stated that the C-TPAT National Training
           Coordinator will provide webinar training to the C-TPAT staff on a regular and
           recurring basis as SOPs are updated, approved, and issued to the field. CBP
           added that once the Portal upgrade is operational the SOPs will be linked to its
           related process minimizing the opportunities for misinterpretation of
           procedures.

           OIG Analysis: CBP’s comments are responsive to this recommendation.
           However, it will remain open and unresolved until CBP provides documentation
           that reflects evidence of training provided.




www.oig.dhs.gov                                8                                        OIG-12-86
                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We performed a selected review of the C-TPAT initial validation process to determine
   whether it ensures that highway carriers’ security practices meet minimum security
   requirements. We conducted this audit at CBP headquarters in Washington, DC. We
   interviewed C-TPAT program managers in headquarters responsible for the
   management and oversight of the program. We also held conference calls with C-TPAT
   officials assigned to field offices in Newark, NJ; Miami, FL; Houston, TX; Buffalo, NY; and
   New York, NY.

   We reviewed and compared the SAFE Port Act to C-TPAT annual plans and C-TPAT
   policies and procedures. We also reviewed documentation supporting validation
   activities. We evaluated initial validation activities, the worksheets resulting from the
   onsite visits, the suspension of benefits, and the removal of carriers from the program.
   Our review of the validation worksheets resulting from the site visits focused on two of
   nine minimum security requirements. Our assessment of these requirements revealed
   that the greatest risks to highway carriers are (1) business partners and (2) conveyance
   security. Our audit coverage included program information and statistics for calendar
   year (CY) 2009.

   For our carrier analysis, we began with 400 highway carriers that C-TPAT validated in CY
   2009 for all of its field offices from the Portal. A total of 188 highway carriers’ initial
   validations were listed as being completed during CY 2009 for the Newark, Miami, and
   Houston field offices. We reviewed a judgmental sample of 21 initial validations
   completed in CY 2009 to ensure that C-TPAT personnel conducted work in accordance
   with SOPs and the SAFE Port Act, that documentation was adequate to support SCSSs’
   conclusions, and that key elements were properly approved and completed in a timely
   manner. Accordingly, the results of our testing represented the characteristics of the
   judgmental sample and were not projected to the population from which it was
   selected. In addition, we relied on C-TPAT initial validation data from the Portal and
   verified the accuracy of database information obtained for the cases reviewed.

   We conducted this performance audit between September 2010 and September 2011
   pursuant to the Inspector General Act of 1978, as amended, and according to generally


www.oig.dhs.gov                                 9                                        OIG-12-86
                       OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              10                                      OIG-12-86
                              OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                        1300 Pennsylvania Avenue NW
                                                                                        W.clllnglOn, DC 20229


                                                                                        u. S. Customs and
                                                                                        Border Protection


                                                                                                 April II, 20 12




                  Charles K. Frlwards
                  Acting Inspector General
                  Department of Homeland Security
                  245 Murray Drive, SW, Building 4 10
                  Washington, DC 20528

                  Re:   The OUice of Inspector General ' s Draft Report Entitled, "Improvements Needed to
                        Strengthen the CusToms-Trade Partnership Against Terrorism Initial Validation
                        Process for IIighway Carricrs - For Official Use Only"

                  Dear Mr. Edwards:

                          Thank yOll fnr the upportunity to review and comment 011 the Office of Inspector
                  General ' s (OlG' s) draft report entitled "Improvements Needed to Strengthen the Customs-
                  Trade Partnership Against Terrorism Initial Validation Process [or Highway Carriers - For
                  Official Use Only," (project no. OIG-IO-IOI-AUD-CBP). U.S . Customs and Border
                  Protection (CBP) appreciates the QIG's work in planning and conducting its review and
                  issuing this report .

                          CBP concurs with the OIO's recommenuatiuns and believes they will strengthen the
                                                                          n
                  Customs-Trade Partnersh ip Against Terrorism (C-TPA Program. However, CBP would
                  like to emphasize that it employs a layered enforcement strategy with multiple checks and
                  balances to reduce the likelihood of contrahand being smuggled into the U.S. The C-TPAT
                  Program does not stand alone on the front line, but compliments and is complimented by
                  other CBP programs and actions such as the Container Security Initiati·\ie (CS1), N(ITl-
                  Intmsive lnspection technolugy (NIl), targeting, K-9 and physical inspections.

                          CBP w()l1ld like [ 0 nutt: several instances with in the report which. if clorified may
                  decrease the perception left by the report that C-TP AT is not effective in decreasing the
                  likelihood of contra hand being smuggled intu the U.S. The audit occurred during a
                  transitional period for C-TPA T since improving upon the receipt of evidence of
                  implementation was already being addressed by the program internally. For example, a
                  working group had already been assembku aud an evidence of implementation matrix and
                  webinar session was developed for the Supply Chain Security Specialists (SC SS) as a result .

                          In auuitioll, the audit indicates that secondary vetting was not conducted. However,
                  all highway carriers are vetted through the Free and Secure Trade (FAST) Vetting Center.




www.oig.dhs.gov                                                 11                                                    OIG-12-86
                              OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                                                                 2


                  Evidence of secondary vetting by C-TPA T SCSS was not found for some of the cases, but in
                  each of the cases reviewed , at least one level of vetting occurred, SCSS reviewed and
                  approved the security profile submitted to CBP, conducted a validation, issued a repon and
                  followed up with the member company regarding identified security enhancements.

                            The finding that standard operating procedures (SOPs) were not always followed,
                  does not explain the full scnpe ofuu:: situation. The deficiency identified was really that the
                  milestones section orthc account did not mention why the validation did not occur !.luring
                  the required timeframe. The deficiency wa.... nuL that the validation exceeded the nonnlll
                  time parameters, but rather that the account lacked any justification supporting a basis for
                  exceeding the timerrame for validation. The Safe Port Act language, states that the 9O-day
                  and I-year timeframes shall be met to the extent practicable. See 6 U.S.c. S 964 (c), 6
                  USC. § 965 (a). C·TrAT personnel must often cancel, postpone or defer travel to cerl.!:!in
                  areas due to security concerns, natural disasters and health warnings, which can Icad to nn
                   init ial validation nul being completed within I year of certification.

                           The report makes three recommendations for CBP. A summary of e BP actions and
                  corrcc.:tivc plans to address the recommendations is provided below'

                  Recommend.ation #1: Update C·TPAT SCSS SOPs to explain what specific details should
                  be included in the validation worksheet and bow SCSSs shou ld verify evidence of
                  implementation for critical minimum security requirements.

                  CBP Response: Concur. In 2010, the program initiated a comprehensive review of the
                  methods and means used by SCSS to verify a partner company's compliance with the
                  security criteria, including examples of evidence of implementation. These best practices
                  were incorporated into a matrix and shared as training resource to all SCSSs. In a parallel
                  effort, thc Evaluation and Assessment Branch (EAB) initiated a comprehensive review of
                  existing SOPs and identified several new processes, wllich the program had initiated to
                  improve the program and needed to be incorporated into cxisting or new SOPs . These
                  effol1s are converging, and now the SOPs that cover the validation proce~s will include
                  specific instructions regarding the details and sUPPOlting documentation that must be
                  included in the validation worksheet. The details contained in the worksheet!'> arc dusely
                  examined by supervisors when reviewing reports and c.:IUsschecked by the EAB during their
                  sample (judils.

                   Completion Date: "'fay 31, 2012

                   Recommendation #2: Revise the "evidence of implementation" training to explain how
                   SCSSs should verify evidence of implementation for critical minimum security requirements
                   and what information they should document to suppan cOllclu!'>iollS.

                   CBP Re!iponse: Concur. The C·TPAf Staff was provided with " Evidence of
                   Implementation" training on Septemrer 9, 2010 . The C· TrAT National Training
                   Coordinator (NTC) worked with Field Training Coordinators (FTC) to develop an enhi1lH.::ed
                   version of the training, which was prO\'ided to tht: sLaITon Mareh 20, 2012 via webinar.
                   Additionally, the C- TPAT Program Director sent a memo to the Field Offtce Managers on




www.oig.dhs.gov                                                  12                                                 OIG-12-86
                             OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



                                                                 3


                  March 21,20 12 advising them that it was critical to ensure that SCSSs are gathering the
                  appropriate evidence during (he validation proce~s. Managers were reminded to pny close
                  attention to in this area when conducting their field assessments ofSCSSs. Recently,
                  BlackBerry devices were updated to provide camera functionality, This feature will be a
                  valuable too l for SCSSs when capturing evidence of implementalion during site visits.
                  Photographs of documents and physical security measures can now be easily captured and
                  uploaded to the C·TPAT web portal as additional evidence to support particul ar findings and
                  observations.

                  Accordingly, CBP respectfully requests closure of Recommendation #2. Supporting
                  documentation to dose this recommendation will be provided.

                  Recommentilltiurl #3: Ensure tbat SCSSs follow SOPs when conducting the initial
                  validations ofhighwny carriers or document reasons for deviations.

                  CBP Response: Concur. The C-TPAT >lational Training Coordinator (NTC) will provide
                  web inar training to the C-TPAT staff on a regular basis as SOPs are appmved and issued to
                  the field. In May of2012, a webinar training ~essiol1 on the newly approved Vetting SOP is
                  scheduled. Subsequent training sessions will be held throughout CY 2012 as new SOPs and
                  updated SOPs arc approved from HQ and issued to the field. Once Porll'll2.0 is operational
                  each SOP will be linked to its process allowiTlg SCSSs immediate access. This operational
                  linkage w ill minimize the opportunities for confusion and/or misinterpretation of
                  procedures. Additionally, many SOPs will include training aids, checklists and other
                  documentation intended to assist the SCSS.

                  Completion Date: December 31, 20 12

                           With regard to the sensiti vity of the draft report, CBP has identified information
                   within the rtp0l1 requiring restricted public access based on a designation of "For Official
                   Use Only." Accordingly, CHP's sensitivity and technical comments will be provided
                   separately.

                          Once again, thank you fo r the opportunity to comment on the dmft report. We look
                   forward to working with you on future reviews. If you have any questions, please have a
                   member of your staff conlaet Katlnyn Dapkins, Audit Liaison, QUke of Internal Affairs at
                   (202) 325-7732.




                                                         James F. Tomsheek
                                                         Assistant Commissioner
                                                         Office of Internal Affairs




www.oig.dhs.gov                                                13                                                 OIG-12-86
                     OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Alexander Best, Director
   Inez Jordan, Audit Manager
   Nancy Pergolizzi, Project Lead
   Duane Albert, Program Analyst
   Melissa Motley, Program Analyst
   Brian Smythe, Program Analyst
   Shanelle Jones-Quintanilla, Program Analyst
   Katrina Bynes, Independent Reference Reviewer




www.oig.dhs.gov                            14                   OIG-12-86
                        OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Commissioner, CBP
   CBP Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 15                         OIG-12-86
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
